100C

Pricing Information Table
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

24.99%

APR for Balance Transfers

24.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.
APR for Cash Advances

27.99%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance transfers
on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

How We Calculate Your
Balance

Daily Balance (including current transactions)

Fees
Annual Fee

None

Transaction Fees


Cash Advance

Either $10 or 5% of the amount of each cash advance, whichever is greater.



Balance Transfer

Either $10 or 5% of the amount of each balance transfer, whichever is greater.



Foreign Purchase
Transaction

3% of each purchase transaction in US dollars.

Penalty Fees


Late Payment

Up to $40



Returned Payment Fee

Up to $40

100C

Details About Your Interest Rates and Interest
Calculations

Daily Periodic Rate

For variable rates:
U.S. Prime Rate Plus

Purchases

0.06846%

21.74%

Balance Transfers

0.06846%

21.74%

Cash Advances

0.07668%

24.74%

APRs Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the Prime
Rate plus the additional amount shown above. If the Prime Rate increases, it will cause the APR to increase. If the
Prime Rate decreases, it will cause the APR to decrease. For each billing cycle we use the Prime Rate published in
The Wall Street Journal two business days before the Statement Closing Date. If the Prime Rate changes any APR,
we put the new APR into effect as of the first day of the billing cycle for which we calculate the APR. We apply the
new APR to any existing balances, subject to any promotional rate that may apply. If The Wall Street Journal does
not publish the Prime Rate, we will use a similar published rate.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may increase as
well.
Daily Balance. We calculate the daily balance for each of your different balances. To get a daily balance, we take
the balance at the end of the previous day, add the interest on the previous day’s balance and new charges, and
subtract new credits or payments. We figure the interest charge by multiplying the daily balance by its daily periodic
rate each day in the billing cycle. We then add up all the daily interest charges and the total is the interest charge for
the billing cycle.

